No. 20-6841
IN THE SUPREME COURT OF THE UNITED STATES
STEVEN JONES
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
PROOF OF SERVICE
I certify that on the 23rd day of April 2021, in accordance with SUP. CT. R. 29,
copies of the (1) Reply Brief for Petitioner and (2) Proof of Service were served by
third party commercial carrier for delivery within three days upon the U.S. Attorney’s
Office for the Southern District of Alabama, 63 South Royal St., Suite 600, Mobile,
AL 36602 and the Solicitor General, U.S. Department of Justice, Room 5616, 950
Pennsylvania Ave., N.W., Washington, D.C. 20530-001.
Respectfully Submitted,

/s/ Patricia Kemp

Patricia Kemp, Esq.
Southern District of Alabama
Federal Defenders Organization, Inc.
11 North Water Street, Suite 11290
Mobile, Alabama 36602
Tel: (251) 433-0910
Fax: (251) 433-0686
Email: Patricia_Kemp@fd.org
Counsel for Petitioner

